            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF NEW YORK
     FOR THE FISCAL YEAR ENDED
           MARCH 31, 2003

     January 2005   A-77-05-00006




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   January 19, 2005                                                   Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Inspector General

Subject: Management Advisory Report: Single Audit of the State of New York for the Fiscal Year
        Ended March 31, 2003 (A-77-05-00006)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of New York for the Fiscal Year ended March 31, 2003. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        KPMG LLP performed the audit. Results of the desk review conducted by the
        Department of Health and Human Services (HHS) have not been received. We will
        notify you when the results are received if HHS determines the audit did not meet
        Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by KPMG LLP and the reviews
        performed by HHS. We conducted our review in accordance with the Quality Standards
        for Inspections issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The New York Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The
        Department of Social Services, Office of Temporary and Disability Assistance (OTDA) is
        the New York DDS’ parent agency.

        The single audit reported that OTDA:

        1. Allocated indirect costs to the New York DDS based on cost allocation plan
           methodologies that were pending HHS’ approval. The corrective action plan
           indicated that OTDA submitted the cost allocation plan to HHS as required and
Page 2 - Candace Skurnik


    claimed costs in accordance with the plan while awaiting HHS’ approval (see
    Attachment A, pages 1 through 4).

2. Miscoded payroll and voucher expenses in the accounting system which may have
   resulted in improper charges to various Federal programs, including SSA. The
   corrective action plan indicated that OTDA will make adjustments to the miscoded
   vouchers and remind staff of the procedures to correctly code vouchers
   (see Attachment A, pages 5 through 9).

We recommend that SSA determine whether:

1. Indirect costs charged to the New York DDS during October 2002 through March
   2003 were in accordance with the cost allocation plan subsequently approved by
   HHS, and, if appropriate, collect any unallowable costs.1

2. OTDA’s reviews of miscoded vouchers identified inappropriate charges to the New
   York DDS during October 2002 through March 2003, and, if appropriate, collect any
   unallowable costs.2

The single audit also disclosed that amounts on the Quarterly Expenditure Reports were
inaccurate. Although this finding was not specifically identified to SSA, it may impact
DDS operations. I am bringing this matter to your attention as it represents a potentially
serious service delivery and financial control problem for the Agency (see Attachment B,
page 1).

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Rustigian. If you have questions contact Shannon Agee at (816) 936-5590.




                                                        S
                                                        Patrick P. O’Carroll, Jr.


Attachments


1
  The Office of the Inspector General report New York Disability Determination Program Indirect Costs
(A-02-04-24017) identified unallowable and improperly allocated indirect costs claimed by the New York
DDS during the period October 1999 through September 2002 and recommended corrective action. To
avoid recommending duplicate corrective action, we limited this recommendation to October 2002
through March 2003.
2
  The Office of the Inspector General report New York Disability Determination Program Indirect Costs
(A-02-04-24017) identified this finding for the period October 1999 through September 2002 and
recommended corrective action. To avoid recommending duplicate corrective action, we limited this
recommendation to October 2002 through March 2003.
Attachment A
  Page 1 of 9
Attachment A
  Page 2 of 9
Attachment A
  Page 3 of 9
Attachment A
  Page 4 of 9
Attachment A
  Page 5 of 9
Attachment A
  Page 6 of 9
Attachment A
  Page 7 of 9
Attachment A
  Page 8 of 9
Attachment A
  Page 9 of 9
Attachment B
  Page 1 of 1
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
